No.

^Q°508

i

IN THE
SUPREME COURT OF THE UNITED STATES

FILED
SEP 0 5 2020
§n

BRANDON S. LAVERGNE
PETITIONER
VS.
MICHAEL VAUGHN, ET AL
RESPONDENT(S)

ON PETITION FOR A WRIT OF CE RTIORARI TO
UNITED STATES FIFTH CIRCUIT OF APPEALS

PETITION FOR CERTIORARI

BRANDON S. LAVERGNE, DOC #424229
DR CCR E-10
LOUISIANA STATE PENITENTIARY
ANGOLA, LOUISIANA 70712

courtLuFsK_

QUESTIONS PRESENTED
1) Can a prisoner’s

1st amendment right to

correspondence be totally “revoked” without a
hearing or due process? This included all religious
mail, educational mail, and some l egal mail while
the prisoner was in solitary confinement.
2) Should a state actor be granted qualified immunity
for the mail block stated in question 1, especially
when he wrote a false report to get that mail block?
3) If a person allegedly sends out unwanted mail, is
there a “reasonable relationship” under the “Turner
Test” to block ah his incoming mad?
4) Does the “Turner Test” apply to outgoing mail?
5) If a prisoner in solitary confinement has no access
to religious gatherings, is it a violation to block all
his incoming and outgoing religious mail?
6) Can a federal district court ignore a rule 56(c)(2) FRCP
challenge to a motion for summary judgement?
7) If a letter forms the basis of a prison disciplinary
report, and the prisoner disputes the contents of the
letter, was his due process rights violated when the
prison refused to produce the letter at his
disciplinary hearing, which lead to 6 months of
disciplinary solitary confinement?

LIST OF PARTIES
MICHAEL VAUGHN
BRUCE DODD
WILLIAM RICHARDSON
MEGAN SHIPLEY

TABLE OF CONTENTS
OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUT ORY
PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX OF APPEND X
A - REPORT AND RECOMMENDATION
B - DISTRICT COURT JUDGEMENT
C - DENIAL OF APPEAL
D - DENIAL OF REHEARING

TABLE OF AUTHORITIES
LaVergne v. Cain Et A1 MD of La. 15-34
Thornburgh v. Abbott 109 S. Ct. 1879 (1987)
Procunier v. Martinez 94 S. Ct. 1800 (1974)
Samford V. Dretke 562 F.3d at 681 (U.S. 5th Cir.
2001)
Turnery. Safely 107 S. Ct. 2254 (1987)
Wolff v. McDonnell 94 S. Ct. 2963 (1974)
Hewitt v. Holmes 103 S. Ct. 164 (1983)
Young v. Kann 926 F.2d 1396, 1400-02 (3rd Cir. 1991)

STATUTE
RULE 56 FRCP
IN THE
SUPREME COURT OF THE UNI TED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari
be issued to review the judgment below.

OPINIONS BELOV/
For cases from Federal Courts:
The opinion of the United States Court of Appeals
appears at Appendix C to the petition and is
UNPUBLISHED.
The opinion of the United States District Court
appears at Appendix B to the petition and is reported at
[LaVergne v. Vaughn Et A1MD of La. 16-400]. It is not
known if it is published.

JURISDICTION
For cases from the Federal Court:
The date on which the United States Court of
Appeals decided my case was: March 12th. 2020.
A timely petition for rehearing was denied by the
United States Court of Appeals on the following date:
June 6th. 2020 and a copy of the order denying
rehearing appears at Appendix D.
The jurisdiction of this court is involved under 28
U.S.C. § 1254(1).

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
1st amendment right to religious assembly and
speech in the courts. Right of association.
5th amendment right to due p rocess and equal
protection before my right to correspondence is taken.
6th amendment right to a fair hearing and to be able
to properly represent myself at an unbiased disciplinary
hearing.
14th amendment right to equal p rotection and due
process in my mail, and state created liberties.

STATEMENT OF THE CASE
When a parent hears his 15 year old daughter has
been placed in a group home for troubled teens, it
should be a cause for alarm. In December, 2015, that
was the situation the Plaintiff found himself in. He
learned that his daughter, Bethany, was in such a
situation. On Bethany’s 15th birthday, the Plaintiffhad
been told by prison officials that unless Bethany filled
out a regular prison visitation background check form
when she turned 15, she would be removed from his
visiting list. Bethany had been on his list for 3 years
prior as a minor. This background che ck form required
a parent or legal guardian’s signature. As this court
knows from [LaVergne v. Cain Et A1MD of La. 15-34]
now pending before this court on appeal. The Plaintiff
knew Bethany’s mother, Lainey, would not sign that
form or even want that form sent to her home. The
Plaintiff filed and exhausted an Administrative Remedy
Procedure Complaint about Bethany being removed
from his list and asked for her to be “grandfathered”
1

attempt to contact Bethany at her mother’s request. The
mother was a resident of Texas. The group home was
in the State of Mississippi. Because Eiethany’s mother
sent her to live in another state, she had to sign over
guardianship of Bethany to the group home. Now that
Bethany was not living with her mother and had new
legal guardians, then and only then did the Plaintiff
contact the new legal guardians and ask them for their
permission to contact Bethany. All the legal guardians
would have had to do was say no, and that would have
been the end of it. The Plaintiff had also hoped if he
was allowed by the group home to contact Bethany,
they would also sign the visitation form to get Bethany
back on his visiting list.
Instead it appears the Mississippi group home
contacted Bethany’s mother, maybe in an attempt to
verify that the Plaintiff was Bethany’s father, and
Bethany’s

mother,

Lainey,

called

the

prison

complaining about the letter that was sent to another
adult in a separate state. The group home staff never
3

made a complaint to the prison about the letter
themselves that was addressed to them. This was
hearsay.
The prison investigator, Michael Vaughn, then
wrote a false report claiming the Pla ntiff had written a
letter to Bethany directly, instead of admitting it was to
her new legal guardians. Vaughn also falsely claimed
the Plaintiff had 6 prior disciplinary convictions for
mail related issues; when in fact, the Plaintiff only had
one. And that one was from Septemb er, 2014, when he
had Bethany’s mother, Lainey, served with legal
documents from this very United States Supreme Court.
That issue is also before this court in [LaVergne v.
Cain].
When the Plaintiff went before the disciplinary
board for this false report, he asked flor the letter itself
to be produced to show the report was false and that he
had not written a letter directly to Bethany as the report
claimed. That board granted that motion and Michael
Vaughn was ordered to produce the letter. Vaughn
4

refused to comply and a new board with new members
was formed. This new board refuse d to produce the
letter and sentenced the Plaintiff to 6 months of
disciplinary lock down and 12 week loss of store for
the non-threatening letter.
Two weeks before the Plaintiff was convicted by
the disciplinary board, Michael Vaughn had Warden
Bruce Dodd sign a mail block order blocking ah of the
Plaintiff’s incoming and outgoing mail, which included
all educational mail, religious mail, personal mail, and
some legal mail. This mail block lasted 18 months. All
of this done without a hearing or due process. The first
year of this mail block, the Plaintiff was in solitary
confinement. All of this was bas ed on Michael
Vaughn’s false report that was based On the hearsay of
Lainey Martinez, who had no legal standing to file a
complaint about that letter in the first place. During
discoveiy, it was revealed Michael Vaughn never even
had the letter. He only had pictures of the letter, with a
page missing, sent to him by Lainey, who had gotten
5

the pictures from the Mississippi group home staff.
More hearsay.
Also during discovery the state produced emails
between Vaughn and Lainey, wh ere Vaughn was
coaching Lainey to say she was Bethany’s legal
guardian, when in fact she was not , in an attempt to
cover up her hearsay.
Vaughn had previously been put on notice through
the lawsuit [LaVergne v. Cain MD df La. 15-34] now
pending before this court on appeal that blanket mail
blocks were illegal based on this court’s rulings in
[Thornburgh v. Abbott 109 S. Ct. 879 (1987)] and
[Procunier v. Martinez 94 S. Ct. 180(1) (1974)]. Vaughn
and Dodd went forward with this m ail block anyway
and made it far worse than the first 2014 mail block.
Vaughn clearly used this situation tc also retaliate on
his behalf for the Plaintiff’s prior sujt pending before
this court and on Lainey Martinez’s behalf for the 2013
lawsuit against her.
The U. S. District Court found under the Turner Test
6

this mail block was OK. The District Court also refused
to make a ruling on the Plaintiff jTule 56 FRCP
I

!

challenge to the admissability of mu ltiple pieces of
hearsay evidence and a series of dismissed disciplinary
reports used as the basis for a defendant’s motion for
summary judgement. The District Court also refused to
determine if Lainey Martinez had legal standing to file
the initial complaint. And the District Court granted
both Michael Vaughn and Bruce Dodd qualified
immunity for the mail block that was cleared based on
Vaughn’s false reports. The District Court also
dismissed the disciplinary board’s refusal to produce
the letter. The U. S. 5th Circuit upheld all these rulings
and now the Plaintiff comes to this coiirt-

REASONS FOR GRANTING THE PETITION
The mail block was illegal—
This mail block was based on a false report by
Michael Vaughn from hearsay from Lainey Martinez.
The Plaintiff could not lose privileges such as canteen,
7

phone, or rec. yard for even a single day without first
being brought in front of a disciplinary board and given
due process. None of those privileges are protected by
the 1st amendment. Yet, the Plaintiff had his
constitutionally protected right to correspondence
“revoked” for 18 months without the same due process
required to take a minor privilege. Further, this mail
block included all his incoming and outgoing religious
mail, educational mail, and some legal mail. The
Plaintiff was in solitary confinement for the first year
of this mail block without any access to religious
gatherings and educational programs. His mail was his
only access.
The Plaintiff provided the U. S. District Court with
multiple letters going to clerks of court, DA’s offices,
and attorneys that was clearly legal mail and was
clearly blocked.
All the Plaintiff’s incoming mail was blocked
without the Plaintiff being notified; S3 the Plaintiff will
never know how much incoming mail was rejected by
8

the prison. Since the Plaintiff was only accused of
sending out an unwanted letter, his incoming mail
should have never been touched.
This court has only allowed outgoing mail to be
blocked to certain addresses only 'or good reason.
Under [Thornburgh v. Abbott 109 S. Ct. 1879 (1987)]
and [Procunier v. Martinez 94 S. Ct. 1800 (1974)] this
court should find the mail block the Plaintiff
experienced to be illegal. Even in [Scimford V. Dretke
562 F.3d at 681 (U. S. 5th Cir. 2009) | the court found
mail could only be blocked to certain addresses. In this
case all the Plaintiff’s mail was blocked for 18 months
incoming and outgoing. Again this wa s done without a
hearing or due process of any kind.

Qualified ImmunifvMichael Vaughn and Bruce Docd were granted
qualified immunity for this mail bloc k after they had
already been put on notice by the lawsuit [LaVergne v.
Cain Et A1 MD of La. 15-34] that blanket mail blocks
9

are illegal under Thornburgh. Procurer, and Samford.
Further, Vaughn wrote a false investigative report and
disciplinary report to get Bruce Docld to sign the mail
block order. Dodd did no due diligence to verify
Vaughn’s claims before signing the order. If Vaughn
thought he was acting in good faith, he would not have
filed false reports falsely claiming I had directly
contacted my daughter and had 6 prior disciplinary
convictions for mail related issue; Men I in fact had
one and that one was for having Lainey Martinez served
with court ordered legal documents from this U. S.
Supreme Court. Vaughn and Dodd kiowingly violated
clearly established law, thereby waiving any claim to
qualified immunity.

The Turner Test- Reasonable Relationship to Incoming
Mail
In [Turner v. Safely 107 S. Ct. 2254 (1987)], this
court found there must be a “reasonable relationship”
between the actions of state actors and what they are
10

trying to accomplish. If the state actors’ goal was to stop
the Plaintiff from sending out mail to a single address,
then how can they justify blocking ad the Plaintiff’s
incoming mail?

The Turner Test- Outgoing Mail
The U. S. District Court and U. S. 5th Circuit both
violated this court’s Stare decisis by applying Turner to
outgoing mail when this court clearly stated
Thornburgh is the controlling case for the control of
outgoing mail. Where Turner may allow a more broad
mail block, Thornburgh and later Samford confirmed
an outgoing mail block must be restricted as narrowly
as possible to accomplish only the stated goal. In this
case, mail should only have been bloc ked to that single
group home address in Mississippi; and only after the
group home staff themselves made that request; not a
3rd part in another state with no legal standing to make
that request.

11

Summary JudgementThere are two issues here. The Plaintiff, on pg. 22
of his response to the defendant’s motion for summary
judgement, included a “statement of disputed facts” that
the defendant never responded to. Under Rule 56
FRCP, the defendant’s motion should have been
dismissed and this suit gone to trial, further, under Rule
56 (c) (2), the Plaintiff challenged the admissability of
the evidence the state was using to support their motion
for summary judgement, including a hearsay statement
from Lainey Martinez about the letter ... a hearsay
photo of the alleged letter that did riot come from the
person that received the letter. Further, the photo didn’t
show the whole letter. Also, the state was using
dismissed disciplinary reports to support their alleged
reason for the mail block including k July 2013 report
and a December 2014 report, and i;wo other reports
from February 2016 that happened after the mail block
was already in place. The U. S. District Court not only
didn’t answer the Plaintiffs “Motion In Limine,” but
12

cited their very inadmissible evidence in granting the
motion for summary judgement, call mg the In Limine
moot.

Disciplinary Board Due Process ViolationMichael Vaughn falsely accused me of sending a
letter directly to my teenage daughter. I, in fact, had
wrote her new legal guardian. When I went to court for
the false disciplinary report, I told the court Michael
Vaughn had lied about who the lette r was sent to and
that Lainey Martinez’s lack of standing to even make a
complaint about a letter sent to another adult in a
different state than herself. Lainey was not my
daughter’s legal guardian at that time4 She gave that up
when she sent Bethany to live at 4 group home in
another state.
The first disciplinary board agreed with me and
ordered Michael Vaughn to produce the letter. Vaughn
refused to comply, knowing he didn't have the actual
letter and if he produced the ineomplbte photos he did
13

have of the letter, it would show his claim I had wrote
my teenage daughter directly was false. It would also
undercut the basis of the mail block,
A new disciplinary board was formed consisting of
William Richardson and Megan Shipley to cover for
the first board that issued the order to produce the letter.
That board said they didn’t need the letter and refused
to let me see the letter or call Vaughn as a witness. That
letter was my only defense to these false allegations.
Richardson even cursed at me and taunted me to file an
appeal of his ruling during the disciplinary hearing. I
was sentenced to 6 months of disciplinary lock down
(I served 70 days) and loss my store for 12 weeks. All
because I was concerned for my teenage daughter who
is not my crime victim nor is anyone in her family,
NOR DID SHE WITNESS A CRIME.
The actions of Richardson and Shipley violated by
5th, 6th, and 14th amendment rights and the precedent
of this court in [Wolff v. McDonnell 94 S. Ct. 2963
(1974)] and [Hewitt v. Holmes 103 S. Ct. 164 (1983)].
14

Under [Young v. Kann 926 F.2d 1376, |400-02 (3rd Cir.
1991)] since the contents of the letter was in dispute, it
should have been produced.

Tn ConclusionThis Petition for a Writ of Cert orari should be
granted.

Respectfully submitted

Brandon S. LaVergne Pro Se
Date:

15

